Report No. D-2007-055    February 5, 2007




   Contract Administration of the Water
  Delivery Contract Between the Lipsey
 Mountain Spring Water Company and the
  United States Army Corps of Engineers
  Additional Information and Copies
  The Department of Defense Office of the Deputy Inspector General for Auditing,
  Defense Financial Auditing Service prepared this report. If you have questions or
  would like to obtain additional copies of the draft report, contact Ms. Lorin T. Pfeil
  at (703) 325-5568 (DSN 221-5568) or Mr. Dana E. Whiting at (703) 325-6634
  (DSN 221-6634).

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Office of the Deputy Inspector
  General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACI                   Advanced Contracting Initiatives
B2B                   Business-to-Business
CEFMS                 Corps of Engineers Financial Management System
CONUS                 Continental United States
DHS                   Department of Homeland Security
FAR                   Federal Acquisition Regulation
FEMA                  Federal Emergency Management Agency
FMR                   Financial Management Regulation
IBTS                  Internet-Based Tracking System
NRP                   National Response Plan
OCONUS                Outside the Continental United States
OIG                   Office of Inspector General
TRC                   TRC, Incorporated
USACE                 United States Army Corps of Engineers
                               INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 222024704

                                                                           February 5,2007
MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               CHIEF OF ENGINEERS, UNITED STATES ARMY CORPS
                 OF ENGINEERS
SUBJECT: Report on Contract Administration of the Water Delivery Contract Between
         the Lipsey Mountain Spring Water Company and the United States Army
         Corps of Engineers (Report No. D-2007-055)

        We are providing this report for your review and comment. We conducted the
audit in response to two Congressional requests from Congressmen Christopher Shays
and Bennie Thompson. This report is one in a series discussing the use of DoD resources
to support the Hunicane Katrina relief efforts. We considered management comments on
a draft of this report when preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Chief of Engineers, United States Army Corps of Engineers comments were partially
responsive. Therefore, we request additional comments on Recommendations A.1, A.2,
A.4, B. 1.a, B.1 .b.l , B.1 .b.3, B.2.a, and B.3.c fiom the Chief of Engineers, United States
Army Corps of Engineers by April 5,2007. In addition, as a result of management
comments, we revised draft Recommendations A.5 and C.3.a (Recommendation B.3.a of
this report).
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the /Signed/
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lorin T. Pfeil at (703) 325-5568 (DSN 221-5568) or Mr. Dana E. Whiting at
(703) 325-6634 (DSN 221-6634). See Appendix F for the report distribution. The team
members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:




                                          ~ a u l v ~ r a n e t tCPA
                                                                 o,
                                 Assistant Inspector General and Director
                                   Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2007-055                                                   February 5, 2007
 (Project No. D2006-D000FE-0091.001)

    Contract Administration of the Water Delivery Contract Between
           the Lipsey Mountain Spring Water Company and
              the United States Army Corps of Engineers


                                 Executive Summary
Who Should Read This Report and Why? Members of Congress and United States
Army Corps of Engineers contracting officials should read this report. It discusses issues
identified in the administration of the water delivery contract used during domestic
emergencies.

Background. Congressman Christopher Shays requested that the DoD Office of
Inspector General review the award process of the contract between the Lipsey Mountain
Spring Water Company and the United States Army Corps of Engineers for the
procurement and delivery of emergency water. He also requested a review of the Lipsey
Mountain Spring Water Company’s ability to meet contract requirements for supplying
water in the event of a domestic emergency. In addition, Congressman Bennie
Thompson requested a determination on whether the Lipsey Mountain Spring Water
Company owed TRC, Incorporated, a subcontractor, several million dollars.

This report is one in a series discussing the use of DoD resources to support the
Hurricane Katrina relief efforts. The DoD Office of Inspector General issued Report No.
D-2006-109, “Response to Congressional Requests on the Water Delivery Contract
Between the Lipsey Mountain Spring Water Company and the United States Army Corps
of Engineers,” August 29, 2006. The report addresses the award and administration of
the water delivery contract between the Lipsey Mountain Spring Water Company and the
United States Army Corps of Engineers and discusses whether the Lipsey Mountain
Spring Water Company owed TRC, Incorporated several million dollars for water
deliveries. This report addresses other matters identified in the administration of the
water delivery contract. Specifically, we identified potential issues related to the
contractor’s performance of water deliveries and supporting documentation for payment
to the contractor.

Results. Although the Lipsey Mountain Spring Water Company has delivered
emergency water to specific sites throughout the United States since April 2003, it did
not consistently meet time performance requirements of the contract. The audit disclosed
the following specific contract administration issues.

United States Army Corps of Engineers personnel did not sufficiently document the
monitoring of the Lipsey Mountain Spring Water Company’s performance on delivering
emergency water, and the Lipsey Mountain Spring Water Company might not be capable
of functioning as the sole source supplier of water in an emergency outside the
continental United States (Finding A).
Mobile and Wilmington District personnel did not always obtain proper supporting
documentation for payments made to the Lipsey Mountain Spring Water Company,
maintain copies of Federal Emergency Management Agency Task Orders and United
States Army Corps of Engineers Delivery Orders, and request copies of the Lipsey
Mountain Spring Water Company Water Quality Reports (Finding B).

We identified potential monetary benefits totaling approximately $8.2 million because
the United States Army Corps of Engineers personnel did not obtain documentation to
support payments made to the Lipsey Mountain Spring Water Company. See Finding B
for detailed recommendations and Appendix E for a summary of the potential monetary
benefits.

Strengthening management controls over emergency water distribution and establishing
stricter contractor oversight should ensure emergency water supplies are available at a
fair and reasonable cost to the Government.

Management Comments and Audit Response. The Chief Audit Executive, Office of
Internal Review, United States Army Corps of Engineers concurred with nine of the
recommendations, nonconcurred with three of the recommendations, and partially
concurred with four recommendations. We request that the Chief of Engineers, United
States Army Corps of Engineers provide comments on the final report by April 5, 2007.
See Finding A and Finding B for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                               i

Background                                                      1

Objectives                                                      2

Findings
     A. Contractor Performance of Water Deliveries              3
     B. Water Delivery and Payment Documentation               14

Appendixes
     A.    Scope and Methodology                               27
     B.    Prior Coverage                                      29
     C.    Congressional Requests                              31
     D.    Wilmington District Delivery Orders DQ07 and DQ11   34
     E.    Summary of Potential Monetary Benefits              36
     F.    Report Distribution                                 37

Management Comments

     United States Army Corps of Engineers                     39
Background
    This is the second of two reports discussing procurement of water for
    emergencies. The first report addressed the inquiries made by Congressman
    Christopher Shays and Congressman Bennie Thompson. See Appendix B for
    copies of the two Congressional requests. This report will address other issues
    identified in the administration of the water delivery contract. Specifically, we
    identified potential issues related to the contractor performance of water
    deliveries and contract documentation to support payments to Lipsey. Both
    reports are part of a series of audit reports to be issued by the DoD Office of
    Inspector General (OIG) discussing the use of DoD resources in support of the
    Hurricane Katrina recovery efforts.

    2004 National Response Plan. The 2004 National Response Plan (NRP) is
    designed to provide structure for effective and efficient incident management
    among Federal, state, and local emergency management agencies. The NRP
    includes 15 emergency support functions, which detail the missions, policies,
    structures, and responsibilities of Federal agencies for coordinating resource and
    programmatic support. The United States Army Corps of Engineers (USACE) is
    primarily responsible for one of the 15 functions, namely Emergency Support
    Function No. 3, “Public Works and Engineering.” Emergency Support Function
    No. 3 includes contracting for water in emergency situations.

    The 2004 NRP commits all Federal departments to cooperate with the Department
    of Homeland Security (DHS) in emergency and disaster situations. DHS is the
    prime Federal agency for responding to emergencies and, under the “Homeland
    Security Act of 2002” (Public Law 107-296), is allowed to coordinate with
    personnel from other agencies to accomplish its mission. The Federal Emergency
    Management Agency (FEMA), part of DHS, is responsible for coordinating the
    Federal response to emergencies and disasters. In an effort to execute a quick
    response in these situations, USACE developed the Advanced Contracting
    Initiatives (ACI). In 1999, USACE developed ACI for ice, water, power,
    temporary roofing, and debris removal.
    Advanced Contracting Initiatives and Issuance of Water Contracts. Under
    the ACI, requirements contracts are awarded before disasters occur and provide
    USACE contracting personnel the flexibility to place delivery orders after a
    disaster at the pre-negotiated rate for these supplies and services. Prior to the
    development of ACI, USACE procured water after the emergency happened,
    delaying the response time.

    Requirements Contracts. Requirements contracts provide a method of filling
    the actual needs of the designated activity by placing delivery orders against the
    contract.




                                         1
     The Federal Acquisition Regulation (FAR) 16.503, “Requirements Contracts,”
     provided the following guidance for requirements contracts.

         •   An estimate for goods or services should be included based on past usage
             or other available information.

         •   If feasible, the contract should state a maximum purchase requirement and
             minimum and maximum amount for each delivery order, and a maximum
             amount to be ordered during a specified time period.

     Contract DACW33-03-D-0003. The USACE New England District awarded
     this firm-fixed-price requirements contract as a small-business set-aside to Lipsey
     on March 31, 2003. The contract covered a base-year period of April 1, 2003, to
     March 31, 2004, with 4 Option Years. As of April 1, 2006, USACE had
     exercised Option Year 3 of the contract, which covers the period from
     April 1, 2006, to March 31, 2007. This contract was based on the previous 3-year
     national requirements contract issued by the Wilmington District on July 27,
     1999. Five USACE Districts (Jacksonville District, Florida; Mobile District,
     Alabama; New England District, Massachusetts; Norfolk District, Virginia; and
     Wilmington District, North Carolina) have obligated approximately $146 million
     and had disbursed more than $81 million against the contract, as of June 23, 2006.
     The purpose of the contract is to provide bottled water, including transportation,
     loading/unloading, drayage, and additional ground mileage to locations within the
     continental United States (CONUS) and outside the continental United States
     (OCONUS) in response to domestic emergencies.

Objectives
  Our overall audit objectives were to address two congressional requests pertaining to
  the award and administration of the water delivery contract between Lipsey and
  USACE and determine whether Lipsey owed TRC, Incorporated (TRC) several
  million dollars. This second report will address other issues identified in the
  administration of the water delivery contract. Specifically, we identified potential
  issues related to the contractor performance of water deliveries and supporting
  documentation for payment to the contractor. See Appendix A for scope and
  methodology and Appendix B for prior coverage.




                                          2
                    A. Contractor Performance of
                       Water Deliveries
                    USACE Mobile, New England, and Wilmington District personnel did not
                    sufficiently document the monitoring of Lipsey’s performance during the
                    delivery of emergency water supplies nor did they require Lipsey to
                    design and maintain a real-time Internet-Based Tracking System (IBTS) to
                    provide information on the status of water deliveries. USACE did not
                    sufficiently document the monitoring of Lipsey performance because the
                    New England District contracting officer had not designated a district
                    responsible for the task. Lipsey did not design and maintain a real-time
                    IBTS because the Districts did not require conformance to contract terms.
                    Finally, Lipsey may have underestimated OCONUS air transportation
                    costs in its original proposal under the firm-fixed price contract. As a
                    result of not sufficiently documenting the monitoring of Lipsey’s
                    performance, USACE was unable to properly evaluate Lipsey’s
                    performance or provide feedback for improvement. In addition, USACE
                    will not be able to properly evaluate Lipsey’s performance and
                    effectiveness at the time of the contract renewal or re-solicitation. Finally,
                    as a result of Lipsey potentially underestimating OCONUS air
                    transportation costs, Lipsey may incur a substantial loss on OCONUS air
                    shipments and default on the contract.

Criteria
           FAR 42.1502.a.

                    Interim evaluations should be prepared as specified by the agencies to provide current
                    information for source selection purposes, for contracts with a period of performance,
                    including options, exceeding one year. This evaluation is generally for the entity,
                    division, or unit that performed the contract. The content and format of performance
                    evaluations shall be established in accordance with agency procedures and should be
                    tailored to the size, content, and complexity of the contractual requirements.

           FAR 49.102.a.
                    The contracting officer shall terminate contracts for convenience or default only by
                    written notice to the contractor. When the notice is mailed, it shall be sent by certified
                    mail, return receipt requested. When the contracting office arranges for hand delivery of
                    the notice, a written acknowledgement shall be obtained from the contractor.

           Defense FAR Supplement 242.15. The Defense FAR Supplement 242.15
           references the DoD Class Deviation 99-O0002 1 for contractor performance
           information.

           DoD Class Deviation 99-O0002. The DoD Class Deviation 99-O0002 made no
           change to the language contained in FAR 42.1502.a.

1
    The Director of Defense Procurement and Acquisition Policy, Office of the Under Secretary of Defense
    for Acquisition, Technology, and Logistics issues class deviations when necessary to allow organizations
    to deviate from the FAR and DFARS.

                                                       3
Contract DACW33-03-D-0003 Section C.2.7.

      Reporting on the status of the Contractor’s performance is of extreme importance during
      disaster response and recovery. To ensure the Government has the ability to track
      production and transportation of water and report on performance in a timely manner, the
      Contractor shall report on the status of performance under Delivery Orders.

Contract DACW33-03-D-0003 Section C.2.7.1.

      The Contractor shall establish and maintain a password protected, internet-based tracking
      and reporting system accessible to authorized government personnel. This system will
      contain the information necessary for the Government to coordinate deliveries and track
      the progress on all Delivery Orders. This system shall be maintained continuously
      during the performance of Delivery Orders to reflect real-time information.

Contract DACW33-03-D-0003 Section C.3.3.11.

      The minimum quantity ordered for any day to a delivery site will be 36,000 liters. The
      cost of providing bottled water to OCONUS locations could vary greatly depending on
      the water source and method of transportation. For this reason, bottled water for
      OCONUS locations is being priced as follows:

            a.   Locally procured bottled water and ground transportation;

            b.   Bottled water procured outside the specific OCONUS location and air
                 transportation; and

            c.   Bottled water procured outside the specific OCONUS location and ocean
                 transportation.

      The Government recognizes that there may be limited sources and quantities of locally
      produced bottled water at some OCONUS locations and that these sources may be
      unavailable following a major disaster. Availability and quantity of locally produced
      bottled water will be confirmed with the contractor before issuance of a delivery order
      for locally procured bottled water and ground transportation. For air deliveries, the
      contractor shall deliver and unload bottled water at the specified military or commercial
      airport within the time period specified for the timely delivery.




                                         4
    Contract DACW33-03-D-0003 Section C.3.14.

           The Government recognizes that upon receipt of Delivery Orders the Contractor will
           need time to fully mobilize significant water production and transportation assets to
           establish a steady flow of Bottled Water into disaster locations. The following delivery
           requirements recognize that need and reflect substantial performance parameters for
           delivery of bottled water. Unless different delivery schedules are specified in a Delivery
           Order, failure to meet the following requirements, except as may be due to MCC
           (Movement Coordination Center) directed shipment delays in paragraph C.3.3.9 or may
           be determined excusable under contract Clause 52.249-8, could result in termination of
           Delivery Orders for default and could further result in a decision not to exercise options
           described in paragraph C.1.5.

    Contract DACW33-03-D-0003 Section C.3.3.16.1.

           For orders of more than 198,000 liters of bottled water per day to any delivery site within
           the Continental United States or to any delivery site, airport or seaport serving
           Anchorage, Fairbanks, and Juneau, Alaska; Puerto Rico; or the U. S. Virgin Islands,
           delivery of lesser quantities within the first hours after issuance of a delivery order will
           be sufficient for substantial performance of the contract requirements. These lesser
           quantities shall be the greater of 198,000 liters or, in the time periods stated below, the
           specified percentages of the ordered quantity:

                    •   Within 24 hours from issuance of delivery order, 25% of the quantity
                        scheduled for delivery;

                    •   Within 48 hours from issuance of delivery order, 50% of the quantity
                        scheduled for delivery;

                    •   Within 72 hours from issuance of delivery order, 75% of the quantity
                        scheduled for delivery; and

                    •   Within 96 hours from issuance of delivery order, 100% of the quantity
                        scheduled for delivery.

Performance Evaluations
    Mobile, New England, and Wilmington District personnel did not conduct
    performance evaluations on Lipsey from April 2003 to January 2006. Therefore,
    they did not comply with the FAR 42.1502.a and DoD Class Deviation 99-O0002.
    The district personnel did not conduct evaluations because the New England
    District did not designate in the contract which USACE Districts were responsible
    for conducting them and reporting on Lipsey’s performance. As a result of
    performance not being evaluated and reported, information on Lipsey’s
    performance was not forwarded to the New England District; nor has the New
    England District requested such information from other USACE Districts.
    Lipsey’s capacity to correct and improve its performance is limited without
    proper performance evaluations because USACE District personnel are not
    identifying weaknesses in Lipsey’s operations. The inability to improve Lipsey’s
    performance could result in the United States Government being unable to deliver
    water as needed in an emergency.


                                               5
Tracking of Lipsey Deliveries
     Mobile, New England, and Wilmington District personnel did not sufficiently
     document the tracking of water deliveries to monitor the performance by Lipsey
     in past emergencies. Contract DACW33-03-D-0003 Section C.3.3.16 provides
     the water delivery parameters for Lipsey. Specifically, for orders greater than
     198,000 liters, Lipsey is required to deliver 25 percent of an order within 24 hours
     of receiving a USACE delivery order; and the remainder of the order is to be
     evenly distributed within 96 hours of receipt of the delivery order (see Table 1).

              Table 1. Contract Delivery Requirements Based on 800,000 Liters
        Hours After Issuance of   Cumulative Percentage        Cumulative Liter
           Delivery Order         Amount to be Delivered    Amount to be Delivered
                  24                         25                     200,000
                  48                         50                     400,000
                  72                         75                     600,000
                  96                        100                     800,000

     USACE Districts were to track and monitor the performance of the water
     deliveries by Lipsey to provide formal evaluations of Lipsey’s performance, as
     required by DoD Class Deviation 99-O0002. However, USACE supporting
     documentation and operations demonstrated that:

            •   USACE District personnel did not sufficiently track Lipsey deliveries,

            •   USACE District personnel did not prepare formal performance
                evaluations on Lipsey’s performance, and

            •   Lipsey deliveries to some locations were not always within the defined
                time parameters of the contract.

     We examined water delivery documentation at the USACE Wilmington and
     Mobile Districts and Lipsey dated between September 2003 and January 2006
     along with USACE database systems in support of the 2003 through 2005
     hurricane seasons and determined that Lipsey delivered multiple truck loads of
     water to specific sites. However, Lipsey did not consistently meet the time
     performance requirements set forth in the contract.

     Specifically, Lipsey did not always deliver emergency water supplies within the
     time limits specified in the contract for Mobile District Delivery Orders CK01,
     CK02, CK04, CK10, CK14, CK15, and CK32 and Wilmington District Delivery
     Orders DQ04 and DQ06 (see Table 2).




                                          6
                       Table 2. Compliance with Contract Time Delivery Parameters
                                  Compliance with     Noncompliance       Delivery Order
               Delivery Order         Delivery         with Delivery      Documentation
                                    Parameters           Parameters        Not Available
                    CK01                                     X
                    CK02                                     X
                    CK04                                     X
                    CK10                                     X
                    CK14                                     X
                    CK15                                     X
                    CK16                 X
                    CK32                                     X
                    DQ01                 X
                    DQ02                 X
                    DQ04                                     X
                    DQ06                                     X
                    DQ09                                                         X
                    DQ10                                                         X

           We also noted that the 2005 hurricane season 2 was significantly more active than
           predicted when the delivery parameters were established during the contract’s
           initial solicitation. Specifically, during the base year period, the estimated total
           quantity of bottled water that might need to be delivered under the contract was
           2,000,000 liters. However, during the 2003 hurricane season, Wilmington
           District Delivery Order DQ01 was for only 180,000 liters and Wilmington
           District Delivery Order DQ06 in 2005 was for initially 18,000,000 liters—a 9,900
           percent increase. This increase almost certainly affected Lipsey’s overall
           performance for the 2005 hurricane season.

           Section C.2.7.1 of the contract requires Lipsey to “establish and maintain a
           password protected, internet-based tracking and reporting system accessible to
           authorized Government personnel.” This system would “contain the information
           necessary for the Government to coordinate deliveries and track the progress on
           all Delivery Orders.” The system would also “be maintained continuously during
           the performance of Delivery Orders to reflect real-time information.” Section
           C.2.7.1 of the contract required Lipsey to design an Internet-Based Tracking
           System (IBTS) that included 12 data elements.




2
    According to the National Oceanic and Atmospheric Administration, the Atlantic hurricane season begins
    on June 1 and ends on November 30.

                                                     7
However, Table 3 shows that seven data elements were missing from the IBTS.

                        Table 3. Internet-Based Tracking System
                                                                           Data Elements
                     Required Data Elements                                          Not
                                                                        Included Included
 Contract Number                                                                    X
 Delivery Order number                                                     X
 Delivery Order Issue Date                                                          X
 Quantity or service ordered                                               X
 Required delivery or performance dates                                    X
 Names and addresses of water suppliers                                    X
 Quantity of water to be provided from each supplier                       X
 Names and addresses of transportation companies                                    X
 Carrier name and Identification Number for each truck, airplane, and               X
 ship
 Quantity of water transported by truck, airplane, and ship                         X
 Scheduled delivery location                                                        X
 Estimated and actual dates and times of deliveries and quantity                    X
 delivered

In addition, Lipsey:

    •   did not design an IBTS website as depicted in the Lipsey electronic user
        guide provided to the New England District;

    •   designed and marketed another version of the IBTS website for
        commercial Business-to-Business (B2B) usage for water bottling and
        transportation companies rather than for USACE’s use;

    •   has not updated or modified their version of the IBTS since 2005; and

    •   improperly used the official logo of USACE on the IBTS website.

The terms of the contract required Lipsey to develop and maintain a real-time
IBTS. However, USACE did not enforce the terms of the contract and allowed
Lipsey to use a website to provide data that were updated every 3 to 4 hours by
way of Microsoft Excel spreadsheets on water delivery information.

Lipsey was not compelled to perform to the terms of the contract because USACE
District personnel did not enforce the terms of Section C.3.3.16 of the contract,
which required tracking water deliveries and ensuring that deliveries were made
within established parameters. Also, Lipsey’s IBTS website was inadequate
because USACE District personnel did not adequately monitor Lipsey’s
performance to ensure that a real-time IBTS website was developed, updated, and
maintained, as required by Sections C.2.7 and C.2.7.1 of the contract.

Failure to sufficiently track and document deliveries rendered USACE unable to
properly evaluate Lipsey’s performance or to provide feedback for improvement
in performance and operations. In addition, USACE will not be able to properly
                                      8
    evaluate Lipsey’s performance and effectiveness at the time of contract renewal
    or re-solicitation. Also, during an actual response and recovery period, USACE
    District personnel did not have access to or use of an IBTS that provided real-time
    data on the production and transportation of water to monitor Lipsey’s
    performance. Finally, Lipsey’s improper use of the USACE logo on its B2B
    website may cause Internet users to think the Lipsey B2B website is an official
    website of the United States Government.

OCONUS Water Deliveries
    Because USACE has never tasked Lipsey to deliver emergency bottled water by
    air to OCONUS under the contract, factual OCONUS air transportation cost data
    were not available for analysis. However, we were able to establish that Lipsey
    charged USACE $4.61 per liter for air shipments of water within CONUS.
    Specifically, in September 2005, Lipsey delivered 1,782,000 liters of water by air
    within CONUS. The Wilmington District and Lipsey negotiated a price of $4.61
    per liter for the air shipment because the original contract did not include a firm-
    fixed price for air shipments within CONUS. Contract Modification P00002
    authorized the price negotiation on CONUS air shipments.

    If the $4.61 per liter accurately reflects Lipsey’s expenses for CONUS shipments,
    then a comparison of the CONUS negotiated price of $4.61 per liter paid in
    September 2005 to the firm-fixed price of $1.84 allowable for OCONUS air
    shipments to Puerto Rico shows Lipsey could potentially lose $2.77 ($4.61-$1.84)
    on each liter shipped by air to Puerto Rico. During Hurricane Georges in
    September 1998, the Government shipped nearly 34 million liters of water to
    Puerto Rico. If a similar emergency arose in Option Year 3 of the Lipsey contract
    and USACE directed an air shipment of 34 million liters, Lipsey could lose more
    than $94 million (34 million liters times $2.77 per liter) (see Table 4). According
    to Lipsey, the company has already had to borrow several million dollars.
    Therefore, this potential loss could cause a financial burden for Lipsey or cause
    Lipsey to default on the contract.

                  Table 4. Comparison of 2005 CONUS Negotiated Price to
                            the Contract Option Year 3 2006 OCONUS Cost
                           2005 CONUS Cost       2006 Contract     Potential Loss
                                                 OCONUS Cost
           Quantity                34,000,000          34,000,000        34,000,000
        Price per Liter               x $4.61              x $1.84           x $2.77
             Total               $156,740,000         $62,560,000       $94,180,000




                                         9
    Lipsey may incur a substantial loss on OCONUS air shipments because the
    company underestimated air transportation costs in Option Years 3 and 4. During
    an emergency, such as in Hurricane Georges, Lipsey could potentially default on
    the contract if tasked to ship similar quantities of water.

Conclusion
    USACE Districts need to monitor the water supply contracts and evaluate Lipsey
    compliance. Because of Lipsey’s inability to always deliver water supplies within
    specified time limits and unpredictable air shipment costs, Lipsey may not be
    capable of performing as the sole supplier of emergency water to OCONUS
    emergencies.




                                       10
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft recommendation A.5 to clarify the nature of the actions needed to improve
    the administration of the emergency water contract.

    A. We recommend that the Chief of Engineers, United States Army Corps of
    Engineers:

           1. Designate which United States Army Corps of Engineers District
    is responsible for monitoring the Lipsey Mountain Spring Water Company’s
    performance and require that District to conduct an annual performance
    evaluation.

    Management Comments. The Chief Audit Executive, United States Army
    Corps of Engineers partially concurred and stated that each contracting officer
    placing a task order under this contract is responsible for monitoring the
    contractor’s performance for that order. This includes the preparation of
    performance evaluations. The Chief Audit Executive also stated that the New
    England District is responsible for the overall contract and will review, among
    other items, performance evaluations prior to the exercise of options in the future.

    Audit Response. The Chief Audit Executive’s comments are partially
    responsive. While we agree that each contracting officer placing a task order for
    this contract is responsible for monitoring the contractor’s performance, our
    observations at the District level indicated that there was confusion as to which
    United States Army Corps of Engineers District was responsible for monitoring
    performance and conducting evaluations.

           •   In the New England District, contracting personnel had informed us
               that the district had not documented any performance information for
               this contract.

           •   In the Mobile District, contracting, operations, and readiness support
               personnel indicated to us that any performance reports prepared for
               this contractor would have been the responsibility of the New England
               District and that the New England District had not requested input for
               performance evaluations.

           •   In the Wilmington District, contracting personnel provided two
               memorandums and an email communication, which discussed specific
               instances where the Lipsey Mountain Spring Water Company was not
               performing in accordance to contract standards. We determined that
               this documentation did not constitute a formal performance appraisal
               on the Lipsey Mountain Spring Water Company’s performance in
               accordance with Federal Acquisition Regulation 42.1502.

    We request that the Chief of Engineers, United States Army Corps of Engineers
    reconsider the United States Army Corps of Engineers’ position on the
    recommendation and provide additional comments in response to the final report.


                                         11
       2. Require each United States Army Corps of Engineers District to
track timeliness for all water delivery orders.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers partially concurred and stated that a process for tracking
timeliness has been in place. Specifically, the contractor used a web-based
tracking system from contract inception with continuous system improvements
added. The Chief Audit Executive further stated that a system was in place to
measure Lipsey’s performance and provide letters of correction as needed and
that the New England District would review this process in the future to ensure
the monitoring of contractor timeliness.

Audit Response. The Chief Audit Executive’s comments are partially
responsive. Finding A describes insufficiency of the Lipsey Mountain Spring
Water Company’s internet-based tracking system and its inability to track water
deliveries during the hurricane disasters. Furthermore, Mobile District personnel
were either unaware of this system during the disasters or used the system only to
track initial deliveries. Wilmington District personnel indicated that when they
used the Lipsey Mountain Spring Water Company’s internet-based tracking
system for tracking purposes, the system did not provide real-time data. We
disagree with the Chief Audit Executive’s assessment of the letters of correction
provided to Lipsey Mountain Spring Water Company. As stated in the audit
response to management comments on recommendation A.1, we do not consider
these letters a formal performance appraisal on the Lipsey Mountain Spring Water
Company’s performance, in accordance with Federal Acquisition Regulation
42.1502. We request that the Chief of Engineers, United States Army Corps of
Engineers reconsider the United States Army Corps of Engineers’ position on the
recommendation and provide additional comments in response to the final report.

       3. Enforce contract time delivery parameters.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers concurred and stated that the process for tracking timeliness
and providing letters of correction is in place. The Chief Audit Executive
acknowledged that Lipsey did not meet all time parameters in the contract
because of the extraordinary volume of water required in the 2005 hurricane
season that made on-time performance impracticable. The Chief Audit Executive
further stated that each contracting office and his internal review office would
review this process in the future to ensure the enforcement of the contract time
delivery parameters.

       4. Direct the United States Army Corps of Engineers New England
District to require the Lipsey Mountain Spring Water Company to develop,
update, and maintain a real-time Internet Based Tracking System website to
coordinate and track the progress on all water delivery orders, as required
by Sections C.2.7 and C.2.7.1 of the contract. In addition, notify the Lipsey
Mountain Spring Water Company not to use the United States Army Corps
of Engineers logo on its commercial business-to-business website without
prior Government approval.


                                    12
Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers partially concurred and stated that Lipsey used a web-based
tracking system and has continuously improved the system as lessons learned
from each mission are incorporated. The Chief Audit Executive further stated
that the New England District Contracting Officer, in coordination with the Office
of Counsel, would instruct Lipsey not to use the Army Corps of Engineers logo as
an actual endorsement, or even appearance of endorsement on its website.

Audit Response. The Chief Audit Executive’s comments are partially
responsive. As stated in our response to the Chief Audit Executive’s comment on
recommendation A.2, we disagree with his assessment of the Lipsey Mountain
Spring Water Company’s internet based tracking system and its ability to track
water deliveries during the hurricane disasters. We reiterate that Wilmington
District personnel indicated that when they used the Lipsey Mountain Spring
Water Company’s internet-based tracking system for tracking purposes, the
system did not provide real-time data. We request that the Chief of Engineers,
United States Army Corps of Engineers reconsider the United States Army Corps
of Engineers’ position on the recommendation and provide additional comments
in response to the final report.

       5. Terminate the requirement in the contract for OCONUS air
deliveries with the Lipsey Mountain Spring Water Company to prevent
default, in accordance with Federal Acquisition Regulation 49.401.a.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers nonconcurred with the original draft recommendation stating
that the recommendation was unclear and that the cost of a termination should be
taken into consideration. He said that termination for default is a drastic and
costly course of action that is available to the Contracting Officer, along with an
assortment of other less drastic measures, in the event of actual or anticipated
failure by Lipsey to perform its contractual obligations. The Chief Audit
Executive further stated that it might not be in the Government’s best interest to
allow a contractor to terminate a contract because of a potential loss or
nonperformance on a firm-fixed-price contract.
Audit Response. The Chief Audit Executive’s comments are nonresponsive. We
have modified the draft recommendation for the final version of the report and
request that the Chief of Engineers, United States Army Corps of Engineers
provide comments on it. We disagree with the Chief Audit Executive’s
assessment that termination of the delivery requirement to sites outside the
continental United States may not be in the Government’s best interest. We feel
that millions of people could be affected in a time of need and left without water
if the Lipsey Mountain Spring Water Company were to default on the contract. In
addition, significant damage could be done to the United States Army Corps of
Engineers’ reputation, which could affect future disaster operations. Finally,
should the Lipsey Mountain Spring Water Company be forced to default on the
contract, it is foreseeable that the United States Army Corps of Engineers would
have to negotiate with an outside provider to deliver water at a significantly
higher cost to meet mission requirements. We feel that such an outcome would
have a greater effect than a preemptive termination and re-solicitation of this
provision of the contract. We request that the Chief of Engineers, United States
Army Corps of Engineers reconsider the United States Army Corps of Engineers’
position on the recommendation and provide additional comments in response to
the final report.
                                     13
            B. Water Delivery and Payment
               Documentation
            Mobile and Wilmington District personnel did not properly document
            contract expenditures, a Government delay of work, air transportation
            costs, and payments made to Lipsey. In addition, Mobile, New England,
            and Wilmington District personnel did not always maintain copies of
            FEMA Task Orders and USACE Delivery Orders. Also, Mobile, New
            England, and Wilmington District personnel did not request copies of the
            Lipsey Water Quality Reports. Adequate documentation was not
            maintained because Mobile and Wilmington District personnel did not
            always hold Lipsey accountable to the terms of the contract and did not
            always comply with provisions of the FAR and the DoD Financial
            Management Regulation (FMR). As a result, Mobile and Wilmington
            District personnel cannot adequately justify all expenditures claimed by
            and payments made to Lipsey. By obtaining and maintaining proper
            documentation, USACE personnel can ensure that payments are
            supported. Also, requiring Lipsey to establish a proper quality inspection
            system may prevent the delivery of poor quality water to areas affected by
            natural disasters.

Criteria
     FAR 4.801.a. The FAR 4.801.a states, “…the head of each office performing
     contract administration, or paying functions shall establish files containing the
     records of all contractual actions.”

     FAR 4.801.b.
            The documentation in the files shall be sufficient to constitute a complete history of the
            transaction for the purpose of providing a complete background as a basis for informed
            decisions at each step in the acquisition process; supporting actions taken; providing
            information for reviews and investigations; and furnishing essential facts in the event of
            litigation or congressional inquiries.

     FAR 32.905.a. The FAR 32.905.a states, “payment will be based on receipt of a
     proper invoice and satisfactory contract performance.”

     DoD FMR Volume 10, Chapter 1, Paragraph 0102.B.

            No payment is made without evidence of a liability and a determination of entitlement.
            The nature and extent of procedures vary for financing and invoice payments.
            Entitlement to financing payments shall be determined by contract terms and conditions,
            including any required approvals by contracting officers, contract administrators, or
            contract auditors. Entitlement to invoice payments shall include, as applicable,
            additional determinations such as proof of receipt and acceptance, receipt of a proper
            invoice, and verification of all computations.

                                               14
Contract DACW33-03-D-0003 Section C.2.4.1.

       The Contractor must maintain an inspection system that ensures the quality of bottled
       water to be provided under this contract. This requirement shall be satisfied by the
       Contractor obtaining copies of applicable certificates, licenses, notifications, permits,
       appraisals, and inspection reports; annual chemical, physical and radiological analysis of
       source water; and results of any other testing of source water and bottled water from each
       bottled water producer from which bottled water is to be purchased under this contract.
       The Contractor shall maintain these records throughout the term of this contract. The
       Contracting/Ordering Officer may request the Contractor to provide copies of this data
       on any or all bottled water subcontractors, at any time during the term of this contract.
       When requested, the Contractor shall provide this data within six (6) hours of such
       request by facsimile, email, or other means, unless the Contracting/Ordering Officer
       authorizes a different time period.

Contract DACW33-03-D-0003 Section C.2.11. Section C.2.11 of the contract
states, “the Contracting/Ordering Officer at the ordering District will send a copy
of all Delivery Orders to the Contracting Officer at New England District.”

Contract DACW33-03-D-0003 Section C.3.1.
       Work under this contract will be ordered by issuance of oral and written DQs to the
       Contractor by the Contracting/Ordering Officer. When oral orders are issued, the
       Contracting/Ordering Officer shall issue a written DQ confirming the oral order within
       twenty-four (24) hours. Written DQs will be provided to the Contractor by electronic
       mail or facsimile and by regular mail. The Contractor shall perform all work ordered
       within the time specified in such DQs, in compliance with all terms and conditions of this
       contract.

Contract DACW33-03-D-0003 Clause 52.232-25.a.3.

       The Contractor shall prepare and submit invoices to the designated billing office
       specified in the contract. A proper invoice must include the items listed in paragraphs
       (a)(3)(i) through (a)(3)(x) of this clause. If the invoice does not comply with these
       requirements, the designated billing office will return it within 7 days after receipt, with
       the reasons why it is not a proper invoice.

Contract DACW33-03-D-0003 Clause 52.242-17.

       If the performance of all or any part of the work of this contract is delayed or interrupted
       (1) by an act of the Contracting Officer in the administration of this contract that is not
       expressly or implicitly authorized by this contract, or (2) by a failure of the Contracting
       Officer to act within the time specified in this contract, or within a reasonable time if not
       specified, an adjustment (excluding profit) shall be made for any increase in the cost of
       performance of this contract caused by the delay or interruption and the contract shall be
       modified in writing accordingly. Adjustment shall also be made in the delivery or
       performance dates and any other contractual term or condition affected by the delay or
       interruption. However, no adjustment shall be made under this clause for any delay or
       interruption to the extent that performance would have been delayed or interrupted by
       any other cause, including the fault or negligence of the Contractor, or for which an
       adjustment is provided or excluded under any other term or condition of this contract.




                                           15
Support for Contract Expenditures
           The Mobile and Wilmington Districts did not maintain proper supporting
           documentation for the expenses incurred for water deliveries. In fact, the overall
           quality and condition of supporting documentation regarding water delivery
           varied significantly among the Mobile and Wilmington Districts and the USACE
           delivery orders. A review of paid delivery orders at the Mobile and Wilmington
           Districts showed Lipsey was paid for services when the required supporting
           documentation was missing, incomplete, or in an unauthorized format.

               Delivery Order CK01 for 85 water shipments:

                   •   none had a bill of lading and
                   •   19 had conflicting water arrival dates.

               Delivery Order CK10 for 198 water shipments:
                   •   52 had no bill of lading and water delivery documents not certified as
                       unloaded by the Government contractor,
                   •   6 water delivery documents were not signed by a Government
                       representative, and
                   •   4 had no truck and trailer number.

               Delivery Order CK11 (for 88 water shipments) had 20 shipments with stand-
               by times that were erroneously calculated.

               For Delivery Order DQ06, Lipsey did not consistently use Water Delivery
               Information Appendix A 3 and Drayage Information Appendix C 4 as support
               for its expenditures.

           In addition, although Lipsey used an unauthorized water delivery form, the
           Mobile and Wilmington Districts accepted it. The Mobile and Wilmington
           Districts accepted water delivery documentation that contained factual
           inconsistencies and documentation that was not always approved by authorized
           United States Government personnel.




3
    Appendix A should be used by Lipsey to provide general water delivery information for USACE.
4
    Appendix C should be used by Lipsey to provide information on drayage for USACE.
                                                   16
Table 5 describes the missing documentation categories and the responsible
USACE District.

                  Table 5. Water Delivery Documentation
                                        Responsible USACE District
     Missing Documentation
             Categories                   Mobile        Wilmington
  Contract Expenditures
   Water Delivery Forms
      1. Missing
          A. Dates                          x                x
          B. Liters                         x                x
          C. Signatures                     x                x
          D. Proper Signatures              x                x
          E. Data Elements                  x                x
          F. Bill of Lading                 x                x

    Warehouse
      1. Lease Agreements                   x
      2. Expense Justification              x

Contract DACW33-03-D-0003 Clause 52.232-25.a.3 requires Lipsey to submit a
proper invoice with supporting water delivery forms to USACE for payment of
services. However, Lipsey has consistently submitted invoices to the Wilmington
District requiring a revalidation by USACE personnel to prevent inaccurate or
unsupported payments. In effect, Lipsey delegated responsibilities to USACE
personnel to determine the amount of water delivered, detect missing
documentation, and determine the amount payable to Lipsey. Lipsey would then
prepare a new invoice and provide documentation to support payment of services
after USACE’s validation and consultation. Although the Wilmington District
did revalidate Lipsey’s invoices and supporting documentation, not all
deficiencies were detected.

The payments were not properly supported because Mobile and Wilmington
District personnel did not require Lipsey to submit proper documentation, as
required by Clause 52.232-25.a.3 of the contract. In addition, the Mobile and
Wilmington District personnel did not adequately review billing documentation
and water delivery forms submitted by Lipsey to ensure that expenses were
properly supported prior to payment, as required by the FAR 32.905.a and the
DoD FMR volume 10, chapter 1, paragraph 0102.B. As a result, Mobile and
Wilmington District personnel cannot adequately justify all expenditures claimed
by and payments made to Lipsey. Lipsey’s submission of improper or inaccurate
documentation hindered timely payments and required significant oversight by
Wilmington District personnel to validate payments. Requiring Lipsey to submit
proper and accurate supporting documentation will mitigate the risk of erroneous
payments.




                                   17
Support for Government-Ordered Delay of Work Payments
    Wilmington District personnel did not properly support a payment made to Lipsey
    for Wilmington District Delivery Order DQ12 associated with a Government-
    ordered delay of work. FEMA directed USACE to curtail all water shipments to
    the areas affected by Hurricane Katrina during the period of September 10
    through September 16, 2005. The Wilmington District then directed Lipsey to
    delay all water shipments that were not loaded in trucks and enroute to their
    destinations. Pursuant to Clause 52.242-17 of the contract, Lipsey requested
    reimbursement for its costs incurred because of the delay of work. Then, the
    Wilmington District paid nearly $1.7 million to Lipsey without first obtaining
    supporting Bills of Lading and water delivery information documents on 334
    water delivery order numbers. For example, on all 334 water delivery order
    numbers, Lipsey did not show the dates for procurement and transportation of the
    water and method of transportation used. In another 58 instances the Wilmington
    District paid for Lipsey to use the same truck multiple times to deliver water
    during the Government-ordered delay of work and 21 instances where the order
    numbers were not supported with a truck and trailer number. Although
    Wilmington District personnel paid $1.7 million, these 79 discrepancies show
    Lipsey was paid $881,000 for services that were not supported (see Table 6).

        Table 6. Unsupported Services of the Government-Ordered Delay of Work
            Description          Number of Instances          Dollar Amount
        Paid for Same Truck                58                         $774,000.00
      Multiple Times to Deliver
                Water
       Unsupported Truck and               21                          107,000.00
           Trailer Number
                Total                      79                         $881,000.00

    Wilmington District personnel did not follow written procedures for receiving
    proper invoices prior to payment, as set forth in the FAR 32.905.a; the DoD FMR
    volume 10, chapter 1, paragraph 0102.B; and Contract DACW33-03-D-0003
    Clause 52.232-25.a.3. In addition, Lipsey personnel acknowledged that they did
    not conduct a review of the billing documentation submitted by its subcontractor
    for the delay of work. As a result, Wilmington District personnel may have
    overpaid Lipsey by $881,000 for unsupported costs (see Appendix E for a
    summary of the potential monetary benefits). Future overpayments may be
    prevented by requiring appropriate documentation prior to payment, as required
    by the FAR, the DoD FMR, and the contract.

Support for Air Transportation Payments
    To authorize air transportation costs, the New England District issued Contract
    Modification P00002 on August 24, 2004, to add a provision for delivery of water
    within CONUS at a price to be negotiated at the time a task order is issued.


                                       18
           In September 2004, Mobile District personnel determined that Lipsey would need
           to transport water by air. However, Mobile District personnel did not properly
           support their basis to justify a $3.30 per liter cost for air transportation. Lipsey
           billed USACE $6.5 million for air transportation costs related to Mobile District
           Delivery Orders CK05 and CK17, dated September 8, 2004, and September 25,
           2004, respectively. However, Lipsey paid a subcontractor $4.9 million for the
           same work. On this transaction, Lipsey netted approximately $1.6 million (a 26-
           percent gross profit margin), an amount we consider excessive when compared to
           a similar air transportation transaction that occurred for delivery orders DQ07 and
           DQ11 in October 2005. In this case, the Wilmington District authorized and paid
           a 7 percent gross margin above actual air transportation costs to Lipsey, which
           was considered a reasonable profit margin. The Mobile District did not protect
           the best interest of the United States Government by not questioning the 19-
           percent difference in gross profit margin on delivery orders CK05 and CK17.

           Furthermore, Mobile District personnel authorized a total payment of $6.5 million
           to Lipsey for delivery orders CK05 and CK17, which was split between payments
           on January 24, 2005; March 15, 2005; and March 28, 2005. Mobile District
           personnel did not first obtain a billing invoice and air cargo manifest from a
           Lipsey subcontractor to support the air shipment. In addition, Wilmington
           District personnel authorized an $8.2 million payment for delivery orders DQ07
           and DQ11 on November 15, 2005, without first obtaining an air cargo manifest
           from a Lipsey subcontractor. During our site visit to Lipsey in March 2006,
           Lipsey provided copies of billing invoices to support the $6.5 million payment
           but still did not provide copies of the airline cargo manifests for the work
           performed under CK05 and CK17. Lipsey provided air cargo manifests to
           support all but $778,000 of the $8.2 million payment for work performed under
           DQ07 and DQ11.

           Using the provisions of Modification P00002, the Wilmington District, through
           delivery orders DQ07, dated September 3, 2005, and DQ11, dated November 1,
           2005, directed Lipsey to procure 1,800,000 5 liters of bottled water for air
           shipment during Hurricane Katrina relief efforts. When DQ07 was issued, the
           Wilmington District contracting officer unilaterally designated the price of $3.60
           per liter for the water shipment by air with a contractual agreement that a cost per
           liter would be negotiated after Lipsey submitted documentation to support costs.
           However, Lipsey did not provide documentation to support actual costs for
           procuring and trucking the water. See Appendix D for the delivery orders and
           requirements.

           Instead of providing documents to support his costs, Lipsey and the Wilmington
           District renegotiated a cost increase from $0.39 to $0.49 to procure the 1,782,000
           liters of water for shipment by air. Lipsey then procured and trucked the water
           from bottling facilities located in Medley, Florida; Fort Worth, Texas; and
           Hamilton, New York, all in close proximity to nearby airports. However, Lipsey
           was already contractually obligated to deliver the water at $0.39 per liter, adding
           $178,200 (1,782,000 liters times $0.10) to the purchase price. Wilmington
           District personnel did not consider this factor when they renegotiated the increase
           to $0.49 per liter, which allowed Lipsey to claim the additional profit of $178,200
           and also did not require Lipsey to provide its costs to procure and transport the
           water, as required by the two USACE Delivery Orders.

5
    Lipsey actually delivered and billed USACE for 1,782,000 liters of bottled water.

                                                      19
           Overpayments may have been made because the Mobile and Wilmington District
           personnel did not properly review Lipsey’s supporting documentation to ensure
           that expenses were supported prior to payment, as required by the FAR 32.905.a;
           the DoD FMR volume 10, chapter 1, paragraph 0102.B; and Contract DACW33-
           03-D-0003 Clause 52.232-25.a.3. Wilmington District personnel may have
           overpaid Lipsey by $778,000, and Mobile District personnel may have overpaid
           Lipsey by $6.5 million for unsupported costs associated with the air transportation
           of bottled water. By obtaining and reviewing the required supporting
           documentation for air shipment payments, USACE can prevent future improper
           payments to Lipsey.

Support for Payments
           Wilmington District personnel did not properly support and accurately compute
           payments of water transportation costs. Specifically, Wilmington District
           personnel paid drayage 6 to Lipsey (when the payment of stand-by time 7 and
           additional ground mileage 8 would have been more appropriate according to the
           terms of the contract) which increased the cost to the Government. We noted the
           following deficiencies related to the payment of drayage, stand-by time, and
           additional ground mileage.

           On Invoice Number DQ06 Bill 6, dated January 10, 2006, Lipsey billed the
           Wilmington District $149,399.93 for drayage on 16 load numbers. However,
           Lipsey paid its subcontractor $72,403.25 for stand-by time and additional ground
           mileage. Table 7 illustrates that on this transaction, Lipsey’s gross profit margin
           for the transaction was $76,996.68 (52 percent). FEMA authorized the
           entitlement for drayage, which is payable in accordance with the terms of the
           contract with USACE. Although we could not determine what the normal gross
           profit margin percentage should be, the 52 percent gross profit margin percentage
           paid to Lipsey on DQ06 seems excessive and indicates a need for improvement in
           the administration of the contract.

                            Table 7. Invoice Number DQ06 Bill 6 for 16 Load Numbers
                     Payment From/To             Payment Terms            Dollar Amount
                  Wilmington to Lipsey       Drayage                              $149,399.93
                  Lipsey to Subcontractor    Stand-By Time and                      72,403.25
                                             Ground Mileage
                  Difference:                                                      $76,996.68


6
    Drayage is the timeframe that the contractor provides tractor power units, with fifth wheel capability, and
    drivers for 24 hours of service in accordance with Section C.3.10 of the contract.
7
    Stand-by time is the reimbursable wait time to a contractor for remaining at a water delivery site at the
    direction of the Ordering Officer for more than 4 hours, in accordance with Section C.3.6 of the contract.
8
    Additional ground mileage is the mileage traveled between the original delivery site and any additional
    delivery site other than that defined in the Delivery Order per Section C.3.5 of the contract.


                                                       20
           On Invoice Number 050212 1006 DQ06 9 Bill 1, dated December 14, 2005, the
           Wilmington District overpaid Lipsey by $41,145.99. The Wilmington District
           paid Lipsey $90,461.75 for drayage related to truck detention days when payment
           for stand-by hours and truck ground mileage was authorized. Our calculation
           shows Lipsey was entitled to a payment of $49,315.76 (see Table 8). USACE
           authorized the entitlement for drayage under DQ06, which is payable in
           accordance with the terms of the contract. Although the amount billed and paid to
           Lipsey is not illegal, we consider it excessive and indicative of the need for
           improved USACE administration of the contract.

                                Table 8. Invoice Number 050212 1006 DQ06 Bill 1
                   Lipsey        Lipsey     DoD OIG      Stand-By    DoD OIG                  Ground
                  Detention    Drayage     Determined     Time @    Determined                Mileage
                    Days           @        Stand-By    $63.84 per    Ground                  @ $1.81
                               $1,532.15     Time in       Hour       Mileage                 per Mile
                                per Day       Hours
                   59.0425    $90,461.75       496      $31,664.64     9,752                 $17,651.12
                  Lipsey: $90,461.75       DoD OIG Determined: $49,315.76
                  Difference: $41,145.99

           Wilmington District personnel issued delivery orders authorizing payment of
           drayage to the contractor when FEMA authorized an entitlement to payment of
           drayage by way of e-mail communications on September 5, 2005, and September
           26, 2005. As a result, in cases like the previous examples, payment of mileage
           and stand-by time would have been the appropriate reimbursement to the
           contractor, instead of drayage payments at a higher cost to the United States
           Government. Obtaining and reviewing the required supporting documentation for
           payments will prevent improper payments.

Task and Delivery Orders
           Mobile, New England, and Wilmington District personnel did not always
           maintain copies of FEMA Task Orders and delivery orders in accordance with the
           FAR 4.801.a and 4.801.b. The Mobile District did not maintain FEMA Task
           Orders for 3 of the 20 Mobile District Delivery Orders issued (15 percent), while
           the Wilmington District did not maintain FEMA Task Orders for 2 of the 12
           Wilmington District delivery orders issued (17 percent). The New England
           District contracting office did not maintain any copies of Delivery Orders and
           Delivery Order Amendments issued by other USACE Districts. Also, in 5 of 12
           instances (42 percent), a written Delivery Order was not issued by Wilmington
           District personnel to support a verbal Delivery Order within 24 hours, in
           accordance with Section C.3.1 of the contract.

           District personnel did not always maintain FEMA Task Orders and USACE
           Delivery Orders because they had not established effective procedures governing
           maintenance of the documents. In addition, Mobile, New England, and
           Wilmington District personnel did not comply with the provisions of:


9
    The Wilmington District issued DQ06 on September 2, 2005, directing the procurement and distribution
    of emergency bottled water during the period of September 11 through 21, 2005.
                                                    21
       •   FAR Part 4.801.a and 4.801.b; and

       •   Sections C.2.11 and C.3.1 of the contract.

    By obtaining and maintaining proper documentation, Mobile, New England, and
    Wilmington District personnel can ensure that the procurement and delivery of
    millions of liters of water and corresponding payments are supported. In addition,
    maintaining adequate files and issuing written delivery orders within 24 hours
    will commit Lipsey to delivering emergency water supplies as tasked.

Water Quality Reports
    Mobile and Wilmington District personnel did not request that Lipsey provide
    copies of its water quality reports and inspection system data for any bottled
    water that subcontractors provided at any time during the term of the contract.
    Moreover, Mobile, New England, and Wilmington District personnel did not
    require Lipsey to maintain an inspection system for the duration of the contract to
    ensure the quality of bottled water being provided. Lipsey provided supporting
    documentation during our site visit for 32 out of the 49 water companies noted on
    their list of vendors. Eight folders contained documentation that had printer/fax
    dates ranging from March 24, 2006, to March 29, 2006, which coincided with our
    site visit to Lipsey. When asked why these eight folders had printer/fax dates that
    coincided with our site visit, Lipsey personnel stated that they had properly
    obtained the inspection system data prior to conducting business with these
    companies; however, the majority of the documentation was filed in their storage
    area, which was not readily accessible.

    Lipsey personnel said they attempted to recreate and consolidate their records by
    reprinting stored files and having the water bottling companies fax their
    documentation. Additionally, Lipsey informed us that they were replacing
    existing water quality reports with more current water quality inspection reports.
    By not maintaining copies of water quality reports and inspection system data for
    any bottled water that subcontractors provide for the duration of the contract,
    Lipsey is not in compliance with Section C.2.4.1 of the contract.

    Requiring Lipsey to establish a proper quality inspection system and maintain
    copies of the necessary water quality reports, as defined by the contract, will help
    prevent the delivery of poor quality water to areas affected by natural disasters
    during times of great need.




                                         22
Recommendations, Management Comments, and Audit
  Response
    Revised and Renumbered Recommendations. As a result of management
    comments, we revised draft recommendation C.3.a (recommendation B.3.a of this
    report) to clarify the nature of the reimbursement for the unsupported $6,530,000
    payment made to Lipsey for air transportation costs associated with Mobile
    District Delivery Orders CK05 and CK17. In addition, as a result of management
    comments and additional audit work, we deleted draft finding B and
    corresponding recommendations. Draft recommendations C.1, C.2, and C.3 have
    been renumbered as Recommendations B.1, B.2, and B.3 respectively.

    B.1. We recommend that the Chief of Engineers, United States Army Corps
    of Engineers direct the United States Army Corps of Engineers Districts to:

           a. Establish effective procedures to ensure that all payments for
    water deliveries are properly supported and reviewed prior to payment, as
    required by the Federal Acquisition Regulation, the DoD Financial
    Management Regulation, and Contract DACW33-03-D-0003.

    Management Comments. The Chief Audit Executive, United States Army
    Corps of Engineers nonconcurred and stated that effective procedures are
    currently in place. The Chief Audit Executive further stated that the New
    England District would defer to the comments provided by the other United States
    Army Corps of Engineers Districts on specific situations discussed in this report.

    Audit Response. The Chief Audit Executive’s comments are nonresponsive. We
    do not agree with the Chief Audit Executive’s assessment that USACE
    procedures ensure that all payments for water deliveries are properly supported
    and reviewed prior to payment. Our report acknowledges that procedures are in
    place at the United States Army Corps of Engineers Districts. However, these
    procedures are not sufficient to ensure every delivery payments is properly
    supported and reviewed, as discussed in Finding B. We also note that the Chief
    Audit Executive did not provide additional comments by United States Army
    Corps of Engineers Districts. We request that the Chief of Engineers, United
    States Army Corps of Engineers reconsider the United States Army Corps of
    Engineers’ position on the recommendation and provide additional comments in
    response to the final report.

           b. Require the Lipsey Mountain Spring Water Company to:
                  (1) Use documentation depicted in the contract in order to
    track and deliver emergency water deliveries.

    Management Comments. The Chief Audit Executive, United States Army
    Corps of Engineers concurred and stated that the web-based tracking system used
    by Lipsey has been improved since the contract’s inception but is still affected by
    the Federal Emergency Management Agency continuously changing the water
    delivery locations. Because of mission demands during an emergency event, the
    Chief Audit Executive concedes that there will be some missteps; however, he
    states that After Action Reviews and immediate performance feedback assists in
    the tracking and delivery of water. The Chief Audit Executive also stated that a

                                        23
Performance Assessment Report is prepared after physical completion of the
delivery order by the issuing contracting office.

Audit Response. Although the Chief Audit Executive concurred with the
recommendation, his comments did not address our recommendation regarding
the use of specific water delivery documentation as discussed in the contract. We
request that the Chief of Engineers, United States Army Corps of Engineers
provide additional comments in response to the final report identifying specific
actions that will ensure that the Lipsey Mountain Spring Water Company uses the
appropriate water delivery documentation.

               (2) Provide accurate and properly supported invoices to the
Districts.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers concurred and stated that payment should not be made until
accurate and properly supported invoices are presented. The Office of the
Principal Assistant Responsible for Contracting will issue guidance reminding the
Field Operating Activities of contract requirements for properly supported
invoices.

              (3) Obtain and maintain the required water quality reports
and provide copies to USACE Districts as requested.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers concurred and stated that, if there is a need to request water
quality reports, Lipsey will be directed to produce the reports in accordance with
the contract.

Audit Response. Although the Chief Audit Executive concurred with the
recommendation, his comments did not address our recommendation to instruct
the Lipsey Mountain Spring Water Company to obtain and maintain water quality
documentation as required by the contract. We request that the Chief of
Engineers, United States Army Corps of Engineers provide additional comments
in response to the final report identifying specific actions that will ensure that the
Lipsey Mountain Spring Water Company establishes a proper quality inspection
system and maintains copies of all water quality reports.

      c. Establish effective procedures to ensure that all FEMA Task
Orders and USACE Delivery Orders are maintained.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers concurred and stated that each contracting officer placing an
order under the nationwide contract is required to maintain the contract
administration files for that order. Contracting officers should ensure that the
contractor is following the requirements of the contract in maintenance of their
task order documentation. The Office of the Principal Assistant Responsible for
Contracting will issue guidance reminding the Field Operating Activities of
contract requirements for Advanced Contracting Initiatives contracts and the need
to ensure that proper documentation is maintained by the contractor.

                                     24
B.2. We recommend that the Chief of Engineers, United States Army Corps
of Engineers direct the United States Army Corps of Engineers Wilmington
District to:

        a. Recoup the $881,000 overpayment associated with the United
States Army Corps of Engineers Wilmington District Delivery Order DQ12
for the Government-ordered delay of work.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers nonconcurred and stated that the issue was addressed with
Lipsey and that the Wilmington District determined that the amount was not an
overpayment. The Wilmington District researched this matter before payment
was made and had obtained supporting documentation for all delay-of-work
claims from the subcontractor and received adequate explanation for the
duplication of truck numbers.

Audit Response. The Chief Audit Executive’s comments are nonresponsive.
The Wilmington District paid nearly $1.7 million, of which $881,000 was an
overpayment, to the Lipsey Mountain Spring Water Company on December 2,
2005. We first disclosed this issue to Wilmington District personnel during our
site visit in January 2006. Prior to our disclosure, the Wilmington District was
unaware of the overpayment. We disagree with the Chief Audit Executive’s
comment that the explanation from the Lipsey Mountain Spring Water
Company’s subcontractor was adequate. We found evidence that the truck
numbers were more than just reference numbers but were, in fact, actual truck
numbers used to make water deliveries. Thus, we consider the subcontractor’s
statement to be an improper assessment of the actual situation. We request that
the Chief of Engineers, United States Army Corps of Engineers reconsider the
United States Army Corps of Engineers’ position on the recommendation and
provide additional comments in response to the final report.

      b. Pay future payments of drayage, stand-by time, and additional
ground mileage to Lipsey in accordance with the terms of the contract.

Management Comments. The Chief Audit Executive concurred and stated that
a process has always been in place at the Wilmington District to pay according to
the terms in the contract. The Wilmington District Internal Review will review
this process to ensure that payments are made in accordance to contract terms.

       c. Recoup the unsupported payment of $778,000 made to the Lipsey
Mountain Spring Water Company for air transportation costs associated
with the United States Army Corps of Engineers Wilmington District
Delivery Orders DQ07 and DQ11.

Management Comments. The Chief Audit Executive concurred and stated that
the Wilmington District agreed that an error was made resulting in overpayment,
and it will take action to recoup it.

B.3. We recommend that the Chief of Engineers, United States Army Corps
of Engineers direct the United States Army Corps of Engineers Mobile
District to:

     a. Recoup the unsupported $6,530,000 payment made to the Lipsey
Mountain Spring Water Company for air transportation costs associated
                                    25
with the United States Army Corps of Engineers Mobile District Delivery
Orders CK05 and CK17 because air cargo manifests were not provided.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers partially concurred and stated that the recommendation did
not follow from the audit findings. However, the district will review the delivery
orders and pursue appropriate action to recoup any profit deemed excessive.

Audit Response. The Chief Audit Executive’s comments are partially
responsive. The comments attempt to address two separate issues as if they were
one. Specifically, the comments combined the fact that Lipsey was able to legally
obtain a 26 percent gross profit margin on an air transportation order and that the
air transportation order itself was not thoroughly supported by appropriate
documentation. While we consider the legality of the 26 percent gross profit
margin amount to be excessive, we did not take this into consideration when
determining the appropriateness of the air transportation expense. We question
the validity of the expense amount if it is not supported by appropriate
documentation, such as air cargo manifests as explained in Finding B. We
request that the Chief of Engineers, United States Army Corps of Engineers
reconsider the United States Army Corps of Engineers’ position on the
recommendation and provide comments on the final report.

       b. Revalidate the supporting documentation for air transportation
costs associated with the United States Army Corps of Engineers Mobile
District Delivery Order CK05, verify the amount paid, and issue an
amendment to Mobile District Delivery Order CK05.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers concurred and stated that the Mobile District has revalidated
the supporting documentation for air transportation cost and will issue an
administrative modification for Delivery Order CK05.

        c. Determine the continental United States “per unit” price for all air
transportation costs prior to actual delivery and maintain adequate support
for this price.

Management Comments. The Chief Audit Executive, United States Army
Corps of Engineers concurred and stated that, based on the experience gained
from the previous year’s hurricanes, the United States Army Corps of Engineers
has better information to determine the cost for air transportation.

Audit Response. Although the Chief Audit Executive concurred with the
recommendation, the response does not provide a detailed approach to addressing
the issue presented in the recommendation. We request that the Chief of
Engineers, United States Army Corps of Engineers reconsider the United States
Army Corps of Engineers’ position on the recommendation and provide
comments on the final report.




                                    26
Appendix A. Scope and Methodology
   At the request of Congressmen Christopher Shays and Bennie Thompson, we
   conducted a review of the contract between Lipsey and USACE for the
   procurement and delivery of water to determine Lipsey’s ability to meet contract
   requirements for supplying water in the event of a domestic emergency and to
   determine whether Lipsey owed TRC several million dollars.

   We reviewed FAR Part:

          •   3 “Improper Business Practices and Personal Conflicts of Interest,”
          •   4 “Administrative Matters,”
          •   5 “Publicizing Contract Actions,”
          •   6 “Competition Requirements,”
          •   9 “Contractor Qualifications,”
          •   14 “Sealed Bidding,”
          •   15 “Contracting by Negotiating,”
          •   16 “Types of Contracts,”
          •   19 “Small Business Programs,”
          •   32 “Contract Financing,”
          •   42 “Contract Administrative and Audit Services,”
          •   43 “Contract Modifications,” and
          •   49 “Termination of Contracts.”

   We also reviewed the “2004 National Response Plan,” the “Emergency Support
   Function #3—Public Works and Engineering Annex,” Engineering Federal
   Acquisition Regulations pertaining to “Federal Acquisition Regulations System,”
   and DoD regulations.

   We reviewed contract DACW33-03-D-0003 awarded on March 31, 2003, to
   determine whether USACE properly awarded and administered the contract, and
   properly solicited to small or minority-owned businesses. We obtained and
   reviewed the acquisition plan, request for proposal, source selection and
   evaluation documentation, cost estimates, and proposals from other solicitors.

   We conducted a site visit to the USACE New England District in Concord,
   Massachusetts, to respond to Congressman Shays’ first inquiry. We also visited
   the USACE Wilmington District in Wilmington, North Carolina, and the USACE
   Mobile District in Mobile, Alabama, to respond to Congressman Shays’ second
   inquiry and Congressman Thompson’s inquiry. These two Districts were
   responsible for approximately $135 million out of the $146 million (92 percent)
   obligated against this contract. Further, we visited the Lipsey Mountain Spring
   Water Company in Norcross, Georgia, and one of Lipsey’s subcontractors, TRC,
   Incorporated in New Plymouth, Idaho. Finally, we conducted data calls with the
   USACE Finance Center in Millington, Tennessee, and with seven of Lipsey’s
   subcontractors. We also conducted interviews with USACE, Lipsey, and TRC
   personnel. We reviewed FEMA Task Orders, USACE Delivery Orders, and
   supporting documentation to support our conclusions.

   We performed this audit from November 2005 through July 2006 in accordance
   with generally accepted government auditing standards. The audit scope was
   limited to the two congressional requests.
                                      27
Use of Computer-Processed Data. We relied on computer-processed data to
perform this audit. Specifically, we obtained and analyzed USACE computer-
processed data originating from the Corps of Engineers Financial Management
System (CEFMS) and compiled by the USACE Finance Center and the USACE
Wilmington and Mobile Districts. We did not assess the reliability of the CEFMS
information used nor the general and application controls of CEFMS during this
audit. We compared obligations and disbursements recorded in CEFMS to
USACE delivery orders and Lipsey invoices provided by the USACE Wilmington
and Mobile Districts. Our comparison of CEFMS data to the information
provided by the two USACE Districts precluded the need for testing CEFMS
general and application controls and, therefore, not testing the general and
application controls did not affect the results of our audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management high-risk area.




                                   28
Appendix B. Prior Coverage
   During the past 5 years, GAO has published three reports and four testimonies,
   the DoD IG has issued four reports, the Army Audit Agency has published one
   report, and the Naval Audit Service has issued one report relating to the contracts
   for Hurricane Katrina recovery efforts. Unrestricted GAO reports and testimonies
   can be accessed at http://www.gao.gov. Unrestricted DoD IG reports can be
   accessed at http://www.dodig.mil. Unrestricted Army Audit Agency Reports can
   be obtained by contacting the Freedom of Information Officer at
   (703) 681-3306. Unrestricted Naval Audit Service reports can be obtained by
   contacting the Freedom of Information Act Coordinator at (202) 433-5525.


   GAO
          GAO Report No. GAO-06-834, “Governmentwide Framework Needed to
          Collect and Consolidate Information to Report on Billions in Federal
          Funding for the 2005 Gulf Coast Hurricanes,” September 6, 2006

          GAO Testimony No. GAO-06-808T, “Better Plans and Exercises Needed
          to Guide the Military’s Response to Catastrophic Natural Disasters,”
          May 25, 2006

          GAO Report No. GAO-06-643, “Better Plans and Exercises Needed to
          Guide the Military’s Response to Catastrophic Natural Disasters,”
          May 15, 2006

          GAO Testimony No. GAO-06-746T, “Factors for Future Success and
          Issues to Consider for Organizational Placement,” May 9, 2006

          GAO Report No. GAO-06-454, “Army Corps of Engineers Contract for
          Mississippi Classrooms,” May 1, 2006
          GAO Testimony No. GAO-06-714T, “Improving Federal Contracting
          Practices in Disaster Recovery Operations,” May 4, 2006

          GAO Testimony No. GAO-06-622T, “Planning for and Management of
          Federal Disaster Recovery Contracts,” April 10, 2006

   DoD IG
          DoD IG Report No. D-2007-006, “Hurricane Katrina Disaster Recovery
          Efforts Related to Army Information Technology Resources,”
          October 19, 2006

          DoD IG Report No. D-2006-118, “Financial Management of Hurricane
          Katrina Relief Efforts at Selected DoD Components,” September 27, 2006

          DoD IG Report No. D-2006-116, “Ice Delivery Contracts Between
          International American Products, Worldwide Services and the U.S. Army
          Corps of Engineers,” September 26, 2006

                                       29
    DoD IG Report No. D-2006-109, “Response to Congressional Requests on
    the Water Delivery Contract Between the Lipsey Mountain Spring Water
    Company and the United States Army Corps of Engineers,”
    August 29, 2006

Army Audit Agency
    Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the
    Hurricane Protection System in New Orleans,” August 22, 2006

Naval Audit Service
    Naval Audit Service Report No. N2006-0047, “Cash Accountability of
    Department of Navy Disbursing Officers for Hurricane Katrina Relief
    Funds,” September 22, 2006 (For Official Use Only)

    Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
    February 16, 2006




                               30
Appendix C. Congressional Requests




                      31
32
33
Appendix D. Wilmington District Delivery
            Orders DQ07 and DQ11




                      34
35
Appendix E. Summary of Potential Monetary
            Benefits
      This audit has identified potential monetary benefits totaling $8,189,000 in
      questioned costs because Mobile and Wilmington District personnel did not
      obtain proper documentation to support payments made to Lipsey. The exact
      amount cannot be determined until the USACE Districts obtain the supporting
      documentation from Lipsey. See Table E-1 for the costs.

                              Table E-1. Questioned Costs
                            United States Corps of Engineers
                         Flood Control and Coastal Emergencies
                          Civil Works Appropriation 96X3125
                               Amount of                            Recommendation
         Category               Benefit      Reason: Unsupported
                                                                       Reference
Delay of Work                    $881,000            X                    B.2.a
Air Transportation
 Delivery Order DQ7 and           778,000            X                    B.2.c
DQ11
 Delivery Order CK5 and CK17     6,530,000           X                    B.3.a
                        Total                        $8,189,000




                                             36
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Chief of Engineers, United States Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Senate Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  House Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, House Committee on
  Oversight and Government Reform




                                          37
United States Army Corps of Engineers’
Comments
                                         Final Report
                                          Reference




                      39
Final Report
 Reference




           *




        *Attachments were omitted because of length. Copies will be provided upon request.
                                                              40
     Final Report
      Reference




     Revised




41
Final Report
 Reference




Deleted




Renumbered
to B.1.a




               42
     Final Report
      Reference




     Renumbered
     to B.1.b (1)




     Renumbered
     to B.1.b (2)




     Renumbered
     to B.1.b (3)




43
Final Report
 Reference




Renumbered
to B.1.c




Renumbered
to B.2.a




           *

Renumbered
to B.2.b




Renumbered
to B.2.c




        *Attachment was omitted because of length. Copies will be provided upon request.
                                                              44
     Final Report
      Reference




     Renumbered
     to B.3.a and
     Revised




45
Final Report
 Reference




Renumbered
to B.3.b




Renumbered
to B.3.c




               46
Team Members
   The Department of Defense Office of the Deputy Inspector General for Auditing,
   Defense Financial Auditing Service prepared this report. Personnel of the
   Department of Defense Office of Inspector General who contributed to the report
   are listed below.

   Paul J. Granetto
   Patricia A. Marsh
   Lorin T. Pfeil
   Dana E. Whiting
   Joshua H. Hickman
   Kenneth W. Lambert
   Scott E. Kontor
   Ralph W. Dickison
   Dana M. Bocek
   Jonah E. Toler
